<html>
<title> - OPPORTUNITIES TO EXPAND VISITATION AT LESSER-KNOWN NATIONAL PARK SYSTEM UNITS</title>
<body><pre>[Senate Hearing 116-334]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-334
 
OPPORTUNITIES TO EXPAND VISITATION AT LESSER-KNOWN NATIONAL PARK SYSTEM 
                                 UNITS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 8, 2019

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    



                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 37-814               WASHINGTON : 2021 
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
CINDY HYDE-SMITH                     MARTIN HEINRICH
LAMAR ALEXANDER                      MAZIE K. HIRONO
JOHN HOEVEN

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Michelle Lane, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1

                               WITNESSES

Jenkins, Palmer ``Chip'', Acting Intermountain Regional Director, 
  National Park Service, U.S. Department of the Interior.........     5
Crachy, Hon. Doug, Commissioner, Powell County, Montana..........    11
Bannon, Sarah, Executive Director, Southwest Montana.............    15
O'Rourke, Toby, President & CEO, Kampgrounds of America, Inc.....    18

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Bannon, Sarah:
    Opening Statement............................................    15
    Written Testimony............................................    17
Crachy, Hon. Doug:
    Opening Statement............................................    11
    Written Testimony............................................    13
Daines, Hon. Steve:
    Opening Statement............................................     1
Jenkins, Palmer ``Chip'':
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    39
O'Rourke, Toby:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................    40


OPPORTUNITIES TO EXPAND VISITATION AT LESSER-KNOWN NATIONAL PARK SYSTEM 
                                 UNITS

                              ----------                              


                        THURSDAY, AUGUST 8, 2019

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                               Deer Lodge, Montana.
    The Subcommittee met, pursuant to notice, at 10:45 a.m., at 
the Grant-Kohrs Ranch National Historic Site, Hon. Steve 
Daines, Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. The Subcommittee will come to order. So 
that is what we do in Washington, DC, by the way, when we start 
a hearing. I sincerely want to thank everybody for coming out 
here today, for joining us. It is a beautiful day, truly, in 
Montana, and here in Deer Lodge, especially.
    We have not done an exhaustive research on this fun fact, 
but we do believe this is the first time, at least in the 
modern history of the United States Senate, that a hearing has 
been held in a barn, which is kind of fun. As some of you know, 
I am the Chairman of the National Parks Subcommittee in the 
United States Senate, which I am honored to have that role, and 
that is a Subcommittee of the Committee on Energy and Natural 
Resources of the U.S. Senate.
    I want to extend a special appreciation to the staff here 
at Grant-Kohrs, which has just been wonderful as we have been 
working to get this setup, including who you just heard from, 
Superintendent Lavelle, as well as Alan Stewart, the Facilities 
Manager, and Julie Croglio, Chief of Interpretation and 
Education, all of whom put in a lot of extra time and hours to 
make this hearing a possibility. I know that you went above and 
beyond, and I would really like to thank you for all that you 
do. It is so appreciated.
    Today is a special day, because we have the opportunity to 
bring the official work of the United States Senate here to 
Montana. I can tell you there is nothing different, in terms of 
the way the process works, from a hearing being held on Capitol 
Hill where everybody is in suits and ties and so forth or being 
here in a barn in Powell County. There is no difference in 
terms of the way this process will work. The official weight of 
this kind of a hearing, the way we will record the testimony, 
and so forth, is exactly the same as it would be in Washington, 
DC, except I would argue, it is a whole lot better out here in 
a barn. Now I think there are some folks in DC that their 
concern is, wait, you don't have air conditioning, right?
    [Laughter.]
    Jacque, you probably heard that concern, right?
    Ms. Lavelle. Yes, that is true.
    Senator Daines. Right. Well, this is why we love to call 
Montana home, don't we? In terms of even on the warmer days in 
August, we can have a hearing here in a barn and be pretty 
comfortable.
    I also want to thank staff here that came from Washington, 
DC, two staff members of the Energy and Natural Resources 
Committee. Michelle, you see she has got my back. Michelle Lane 
who is here from Washington, DC, as well as Darla Ripchensky 
who is here. These are both members of the Committee back in 
Washington, DC, and thank you for making the trip out here. I 
have already heard rave reviews from the staff saying, I cannot 
believe how amazing this place is and I think you may be talked 
into canceling the return trips to Washington, DC----
    [Laughter.]
    ----which I would not blame you one bit. Well, growing up 
in Montana like many of us here in this room, spending time 
outdoors, getting out in the backcountry, whether it is hunting 
and fishing, that is just what we do and what I did as a kid. 
Some of you may know I went to kindergarten through college 
over in Bozeman.
    My dad went to the University of Montana for college. In 
fact, my mom was pregnant with me, put my dad through school, 
once upon a time, working at the Missoula Merc back in the 
early '60s. But I was lucky enough to grow up in the shadows of 
Yellowstone National Park, and our family, like many of you, we 
back in those days, used to hop in the Griswold station wagon 
and Dad would load up me and my two sisters and we would get on 
the road traveling across Montana. We loved to visit parks all 
over the Western part of the country, but the Montana parks 
were always home for me as a Bozeman kid, as a Montana kid. But 
what I learned from that experience and those visits, whether 
it is a small family road trip, or maybe it is a bus load of 
folks coming to Big Sky Country from around the U.S. or even 
overseas. We are seeing increasingly more overseas visitors 
coming to our parks here in Montana and around the country, and 
these visitors have a huge economic impact on gateway 
communities. We know that over 5.5 million people visited 
national parks in Montana last year. Now, think about that. 
That is five times our state's population that came to Montana 
to visit our parks last year. They spent approximately--and I 
am not sure how we can tally that up easily, but we have made 
some good guesstimates--approximately $633 million in local 
gateway regions which supports over 9,500 jobs and generates 
over $880 million in the Montana economy alone.
    And while we do know that the majority of these visitors 
went to Glacier and Yellowstone, we are here today to talk 
about other parks in our state that also contribute to that 
number, like Grant-Kohrs. Of the 5.5 million visitors that came 
to see parks in Montana last year, 26,700 came here to Grant-
Kohrs Ranch National Historic Site. You can see we have a lot 
of upside potential. That is probably the understatement of the 
hearing here, I would say. Well that is not a huge number, and 
though we are going to spend time today talking about what we 
can do to increase that number, these visitors did contribute 
$1.6 million to the local gateway economy here in Deer Lodge as 
well as supporting 23 jobs and that is a big deal for a rural 
community in Montana.
    Generally speaking, visitation across parts of Montana and 
across the country has increased over the last decade. We are 
seeing some trends. I know as I look at the Yellowstone 
numbers, as Chair of the National Parks Subcommittee, we look 
at some of these stats, the shoulder season that we always 
refer to in Montana, that time when Montana cannot quite make 
up its mind whether it is wintertime or summertime--somebody 
said the other day that Montana is nine months of winter and 
three months of hoping for summer. I heard that. But during 
this shoulder season, is that April-May time period, or in the 
fall which is sometimes the most glorious times of the year, 
that September-October-November kind of in between the winter 
seasons and summer seasons, we are starting to see a lot of 
international visitors now coming that are filling in what used 
to be more of a shoulder season downturn. We are starting to 
level some of that out.
    We saw a big spike in visitation as the National Park 
Service celebrated its Centennial in 2016. Along with an 
increase of visitors though does come some challenges. When we 
look at the fact the National Park Service has 419 units of 
which Grant-Kohrs is one of those, 30 percent of the visitors, 
about 318 million nationally, went to only 10 of those units.
    Now we understand, especially in Montana, that many people 
have their bucket list of vacation items that might include a 
trip to Yellowstone, or landing perhaps a nice trout, or a trip 
to Glacier and driving the Going-to-the-Sun Road, but I think 
there is room to expand what folks think of that perfect bucket 
list vacation spot, like showcasing the beauty and the fun of 
these other park units in Montana and that is what we are here 
to do today. We are here to take a deeper dive into how we can 
encourage visitors to stop at lesser-known parks like right 
here at Grant-Kohrs. Let's talk about who is in the best 
position to get the word out and what factors into a visitor's 
decision-making process.
    By encouraging visitors to get out and explore all of 
Montana's great parks, I think we can create truly a win-win 
situation. First, visitors might find some new favorites 
exploring places they might not have thought to place on the 
itinerary before. We can also help surrounding towns and 
communities continue to benefit from increased visitation. And 
lastly, we can help spread the visitation between parks which 
can help with this growing backlog of maintenance on our 
national parks. One of the bills we are working on right now, 
one of my highest priorities as the National Parks Subcommittee 
Chairman, is to address this issue of the maintenance backlog 
we have. It is nearly $13 billion in infrastructure backlog, 
maintenance backlog, and as Angus King--who is the Ranking 
Member of this Subcommittee and the Senator from Maine, we 
spend a lot of time together working on national park issues--
said, ``Just think about backlog maintenance as debt and we owe 
it to our national parks to invest in them. They are 
treasures.''
    This is a bill that I hope we can get passed and put on the 
President's desk yet this Congress. So whether we are pushing 
legislation to fix this massive maintenance backlog which is 
impacting your visitation in national parks, called the Restore 
Our Parks Act, or working to bring awareness to the challenges 
that gateway communities of parks face, like we did at last 
year's field hearing in Gardiner. I had a field hearing in 
Gardiner, Montana, and we looked at the constraints in a place 
like Gardiner, places like Cooke City, places like West 
Yellowstone. We are landlocked and we are surrounded by federal 
lands, yet these communities need to expand, need to be able to 
provide employee housing, and we are running into some 
challenges there. But I can tell you the field hearing in 
Gardiner was not warm.
    [Laughter.]
    It is cool. But Montana has been a priority of mine since 
day one in Congress, so I am grateful to be here today. Before 
we move forward, I would like to remind everyone that this is 
an official United States Senate hearing. I will briefly 
introduce each of the witnesses and then each witness will have 
five minutes to provide their testimony. Following the 
testimony, I will ask questions, during which time each witness 
will have up to five minutes to respond. If you have ever 
watched one of these hearings on C-SPAN--now it is probably a 
really slow day if you are watching 
C-SPAN----
    [Laughter.]
    ----I think the only person who watches C-SPAN is my mom to 
see if I am there. But if you have watched C-SPAN, you will see 
we will conduct this hearing the same way. One thing I will be 
able to do, and I will be asking questions of the witnesses. 
When they speak, they will have up to five minutes to respond, 
but because we are not in Washington, we are not going to be 
too strict with the time although we will try to keep this on 
time, especially if we can, as we want to try to respect your 
time as well. Once we finish up with the questions, I will 
gavel the hearing out, like we do in DC, and one last reminder, 
as this is an official hearing of the United States Senate, 
there are no questions from the audience in an official U.S. 
Senate hearing. Everything said here today will be included in 
the official record. Thank you for being here to take the 
official record just like we do in Washington, DC. We 
appreciate it. So let's move on to the witnesses. It is now 
time to hear from our witnesses who are sitting down to my 
right.
    Joining us this afternoon are Mr. Palmer ``Chip'' Jenkins, 
the Acting Intermountain Regional Director of the National Park 
Service, U.S. Department of the Interior, welcome; the 
Honorable Doug Crachy, Commissioner of Powell County, Montana, 
thanks for being here commissioner; Ms. Sarah Bannon, Executive 
Director of the Southwest Region of Montana Office of Tourism 
and Business Development, welcome; and Ms. Toby O'Rourke, 
President and CEO of Kampgrounds of America, Inc. You might 
know that better as KOA.
    I want to thank you all for being here with us. At the end 
your testimony we will begin questions. Your full written 
testimony will be made part of this official hearing record. 
Mr. Jenkins, I would ask you to kick this off. Please, proceed.

  STATEMENT OF PALMER ``CHIP'' JENKINS, ACTING INTERMOUNTAIN 
 REGIONAL DIRECTOR, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Mr. Jenkins. Thank you, Chairman Daines. Thank you for the 
opportunity to present the Department of the Interior's views 
on the topic of expanding visitation at lesser-known parks. I 
would like to summarize my statement. The full one is submitted 
for the record. I would also like to request that Grant-Kohrs 
Ranch's Superintendent, Jacque Lavelle, be allowed to assist in 
answering questions?
    Senator Daines. Without objection.
    Mr. Jenkins. Thank you. On a personal note, I have worked 
for the National Park Service for over two decades, starting as 
a ranger at North Cascades National Park. I first visited 
Grant-Kohrs Ranch when I was Superintendent of Fort Clatsop 
National Memorial, which is a turnaround spot on the Lewis and 
Clark Trail on the Oregon coast. At the time, we were preparing 
for the Bicentennial celebration of the Lewis and Clark 
expedition in the early 2000s.
    My wife and my two young sons and I were spending time 
exploring the Lewis and Clark Trail, one of the lesser-known 
sites of Montana, and we were spending time working our way 
through Montana on the trail. We stopped here at Grant-Kohrs on 
the spur of the moment when we saw the sign and decided to take 
a break. We thought it was going to be a short stop to make use 
of the restroom. It actually turned into almost a full day 
visit. We were captivated by the history of ranching in 
Montana, the stories of ranch life, the magnitude of operating 
a ranch. My kids especially enjoyed learning how to rope, 
lassoing a wooden steer. This was a visit that was fun and 
educational, but it also helped me as a National Park Service 
Manager continue to learn about the untapped potential that our 
lesser-known parks have and what they can offer to visitors.
    Each and every unit of the National Park System, no matter 
its size, location, special features, or number of visitors, 
contributes to the fabric of American life and offers visitors 
an opportunity to experience an important aspect of our shared 
heritage. The National Park Service saw record-breaking 
visitation in 2016, our Centennial year, when visitation topped 
330 million. But visitation growth is varied among parks. Some 
of the lesser-known parks have had less growth, even a decline 
in visitation.
    The National Park Service has been working in a variety of 
ways, many in collaboration with partners, to promote lesser-
visited parks. Here at Grant-Kohrs, visitation has grown from 
about 20,000 to 26,000 annually over the last decade. The key 
to this increase has been building relationships with partners 
throughout the region, including Powell County, the Chamber of 
Commerce, and local and regional tourism groups. The park 
offers unique events such as the annual Pumpkin Sunday event, 
Haying with Horses, and the Holiday Open House. The park has 
agreements with the Draft Horse Expo, and it partners with the 
Rialto Community Theatre and hosts local community events like 
last night's Movie with a Ranger and Evenings at the Ranch.
    Programs provide visitors with activities in the evenings, 
but this also encourages people staying in hotels and camping 
to visit the town and support local restaurants and shops. 
Nationally we have programs to attract visitors to lesser-
visited parks. In 2015, the National Park Service and National 
Park Foundation launched the public engagement campaign called 
``Find Your Park'' as an initiative for the 2016 Centennial. 
Find Your Park continues today, through traditional advertising 
in key markets, digital and social media advertising and 
special events and programs.
    Another Centennial initiative was the Every Kid in a Park 
program, now called Every Kid Outdoors. This program provides 
free passes to parks and public lands to fourth graders and 
their families. For smaller sites that do not charge entrance 
fees, the significance of the program has been the associated 
help for providing transportation and programming for nonprofit 
partner organizations. This is a successful initiative that has 
introduced a lot of fourth graders and their families to 
national parks. Yet another program that began in the 
Centennial is Community Volunteer Ambassadors. These are youth 
volunteers who help with volunteer programs that introduce 
people to the parks. At least 20 percent of these Ambassadors 
are placed in lesser-visited parks.
    The National Park Service has also made great strides in 
increasing the visibility of lesser-visited parks through 
digital and social media. Our websites are regularly updated 
with trip suggestions, thematic itineraries and other tools to 
guide people to park experiences based on interests and 
activities. It is a great way for potential park visitors to 
discover experiences available at parks they may never have 
heard of.
    We hope to continue to build on all these efforts to make 
more visitors aware of the lesser-known parks and these 
National Park Service gems. Mr. Chairman, this concludes my 
statement. Superintendent Lavelle and I would be pleased to 
answer any questions you have.
    [The prepared statement of Mr. Jenkins follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Senator Daines. Thank you. Commissioner.

  STATEMENT OF HON. DOUG CRACHY, COMMISSIONER, POWELL COUNTY, 
                            MONTANA

    Mr. Crachy. Well, thank you Senator Daines for having this 
hearing at Grant-Kohrs, Deer Lodge, and Powell County. I will 
start by giving a little bit of history of the County. Powell 
County originated by being split off of Deer Lodge County in 
1901. The County seat of Powell County is Deer Lodge. 
Agriculture has been and still is the main economic business in 
Powell County. Mining was a major industry in the County until 
approximately 1990 when the last major mine, a phosphate mine, 
shut down eliminating many jobs.
    Another mine-related business, the smelter in Anaconda, 
employed many Powell County residents. Until the Milwaukee 
Railroad closed in 1980, a roundhouse was located in Deer Lodge 
and employed many good-paying positions. Approximately 49 
percent of Powell County is Federal Government-owned, the vast 
majority being the U.S. Forest Service, and minor percentages 
are BLM and Park Service. Logging in Powell County was a very 
active industry until the political and management climate 
curtailed almost all timber harvesting on federal land.
    Now the County must rely on SRS payments as a major funding 
source instead of logging as income from non-taxable federal 
land. One of the few sawmills left in the state is located in 
Deer Lodge, and it is still a major employer in the area, but 
the majority of the trees are not harvested in Powell County. 
Deer Lodge is midway between Glacier and Yellowstone off of 
Interstate 90, one of the main corridors between these major 
national parks. Powell County has many recreational activities 
that now attract people from both in and out of the State of 
Montana. Fishing is excellent on the Clark Fork, Blackfoot and 
Little Blackfoot rivers, Georgetown Lake, and many of the 
smaller streams and lakes in the County. Hunting is also very 
popular. Elk, deer, antelope, bear and predators are all able 
to be hunted locally.
    The northern portion of Powell County is in the Bob 
Marshall Wilderness, limiting economic activity to recreation. 
The Territorial Prison, constructed before Montana became a 
state, is located in Deer Lodge, and is a major tourist 
attraction for the area, along with the car museum and the 
hobby shop which sells inmate produced items. The Continental 
Divide Trail runs the length of the eastern boundary of Powell 
County. Powell County has acquired the old Milwaukee railroad 
bed between Deer Lodge and Garrison, a distance of 
approximately eight miles and also very instrumental to this 
Grant-Kohrs Ranch. But we are doing it as a future extension to 
the Arrowstone Park and Trail System within the City of Deer 
Lodge.
    Hiking and biking trails are becoming very popular as a 
tourist attraction. A 9-hole golf course is located just 
outside of town, and the Jack Nicklaus-designed Old Works Golf 
Course is just a few miles away in Anaconda. These activities 
are all draws that are available for tourists to enjoy along 
with visiting Grant-Kohrs Ranch. Powell County recently added a 
commercial kitchen to the Blue Ribbon Pavilion located on the 
Powell County Fairgrounds that has the capability of serving 
around 500 people.
    Obtaining functions at the pavilion also encourages 
attendees to also enjoy the other activities available such as 
hiking, golfing and Grant-Kohrs. The Deer Lodge City-Powell 
County Airport is in the process of being expanded with the 
assistance of the FAA. Advertising is important, as tourists 
must be aware of what is available and having the area 
presented as an interesting destination to get them to stop and 
enjoy the amenities. Social media and websites are popular and 
widely used.
    Many tourists planning to visit Montana obtain brochures 
from the State tourism office. Being included in these 
brochures is a benefit. Advertising in travel magazines and 
placing information at resorts, campgrounds, and RV parks is 
beneficial. The old standby of attractive billboards placed on 
the highways still brings attention to local attractions to 
traveling tourists, tempting them to stop.
    I thank you very much Senator for having me here to 
testify.
    [The prepared statement of Mr. Crachy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Senator Daines. Thank you, Commissioner. Ms. Bannon.

   STATEMENT OF SARAH BANNON, EXECUTIVE DIRECTOR, SOUTHWEST 
                            MONTANA

    Ms. Bannon. I am Sarah Bannon, Executive Director of 
Southwest Montana. We are a contractor with the State for 
marketing the nine counties in Southwest, Montana. Senator 
Daines, I appreciate the opportunity to visit with you and to 
be a part of this hearing.
    Montana has over 2.3 million non-residents come to the 
state, and so that was the number for 2018. Eighty-four percent 
of these people plan to return to Montana within two years. Of 
the non-resident visitors surveyed who came to Powell County, 
70 percent of those people went to Yellowstone National Park, 
57 percent of those people went to Glacier National Park, and 
71 percent of the people coming to Powell County said they were 
looking for other historical sites. Now if we could get more of 
the national park travelers coming to the Grant-Kohrs Ranch and 
the Big Hole National Battlefield's national historic sites, it 
would take some of the pressure off the national parks' 
overflow and reduce the impact on the environment.
    So what are some of the ways that we drive Montana tourism? 
Of course, we have print advertising, billboards strategically 
placed, travel guide websites, social media, and our 
partnerships like with Deer Lodge, we do cooperative grants and 
community quarter grants, we do brochures. And regionally we 
have the travel guide, a tear-off map, a website, video for the 
website, a birding brochure, which our first feature on the 
birding brochure is Grant-Kohrs Ranch.
    So we would like to give more exposure right in the 
national parks, and they are so willing to bring people to the 
other parts in the State, and in our region, and into these 
national historic sites. So we need to get them the information 
to get them to funnel more people over to this wonderful site 
here.
    Jacque Lavelle, the Superintendent, super superintendent, 
she has created the largest event in Deer Lodge with Pumpkin 
Sunday. This event brings in 5,000 people into a slower 
shoulder season. She has excited the town to piggyback on the 
event and now they are doing their own Fall Festival along with 
the Pumpkin Sunday. She has all kinds of events, movies at the 
theater, birding, trail hikes and runs. Jacque is so willing to 
do anything she can to build interest in Grant-Kohrs Ranch, and 
she is doing a fabulous job at this.
    As you know, Southwest Montana considers this historic 
ranch a main attraction not only in Montana, but in the country 
as it is the way of life that is too often forgotten. School 
field trips are regular here to educate children on the actual 
history of the cattle industry and life on the frontier. Adults 
from all over are jolted into a glimpse of the past trials and 
tribulations forged in this way of life.
    Southwest Montana markets the Grant-Kohrs Ranch and the 
regional travel guide along with influencers where we bring 
writers in to come and write about their experiences here. We 
look forward to helping with more marketing exposure for the 
Grant-Kohrs Ranch historic site and continuing to work with 
Superintendent Jacque Lavelle.
    Thank you.
    [The prepared statement of Ms. Bannon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Daines. Thank you, Ms. Bannon. Ms. O'Rourke.

  STATEMENT OF TOBY O'ROURKE, PRESIDENT & CEO, KAMPGROUNDS OF 
                         AMERICA, INC.

    Ms. O'Rourke. Thank you, Senator, for having me, a KOA 
representative, at this hearing today. I appreciate the 
invitation to discuss this topic of expanding visitation in our 
parks, specifically to lesser-known parks, as it has a direct 
overlap to our business. My name is Toby O'Rourke. I am the 
President and CEO of Kampgrounds of America, or as you said, 
KOA. We are the world's largest network of privately owned 
campgrounds with nearly 520 locations across the United States 
and Canada. We were founded in 1962 in Billings and our 
headquarters remain there today.
    The majority of our campgrounds are franchises that are 
privately owned and operated, and they partner with us 
primarily for marketing and brand awareness, but also program 
supporting technology. We at KOA, Inc. also own 31 locations 
ourselves in various places across the country. Because of our 
large footprint, there is a KOA location near most every 
national park, memorial, monument or historical site. For 
example, here in Montana, not only do we have parks surrounding 
Glacier and Yellowstone, but we also have a campground at the 
Big Hole National Battlefield, the Little Bighorn Battlefield 
National Monument, and here in Deer Lodge near this location. 
Camping is increasingly growing in popularity.
    Based on our research report, the North American Campaign 
Report that we publish annually, we estimate there are 78 
million households who consider themselves active campers, and 
there has been roughly 7.2 million households that have been 
new to camping over the past five years. Thirty-nine million of 
those camp every year, and the number of annual campers has 
increased 22 percent over the past five years. Not only are 
more people camping, they are camping more frequently.
    Since 2014, we have seen a 72 percent growth in households 
taking three trips a year. I share these numbers because the 
growing population of campers represents a growing market for 
national park visitation. We find that most campers use our 
campgrounds as base camps for exploring the surrounding area. 
There are several trends worth noting that have an impact on my 
business that I believe would likewise affect the national 
parks. Understanding these trends would allow us to build 
effective marketing programs and could help build communication 
strategies for the parks, one of which is diversity.
    There has been significant increase in diversity in camping 
over the past five years. Our report shows that 29 percent of 
camping households are multicultural, and that is a 17-point 
increase since 2012. New campers are increasingly more diverse. 
In fact, last year, all new campers that camped for the first 
time, 51 percent of those were from minorities demographics. 
Key to attracting more diverse visitors is focusing on 
representing inclusion in not just marketing but also in 
operations and staffing.
    Secondly, millennials. Younger generations are driving the 
growth we see in camping. Millennials represent the largest 
segment of camping households at 41 percent. That is a 7-point 
increase. Among new campers, 56 percent were from millennial 
households. Millennials are a large focus of the travel market 
in general, because they are focused on experience, which is a 
nice target for the national park. I believe, being a marketer, 
that it is very difficult to market effectively to a whole 
generation so we like to segment it by life stage. And for us, 
focusing on the millennial family is a very good target that I 
think overlaps here. Road trips is a trend.
    KOA was built on the concept of road trips. Our founder 
recognized in 1962 people traveling to the Seattle World's Fair 
and developed a business off of that. What we are seeing now in 
research that we follow is that road trips have been trending. 
The portrait of American traveler research shows that the 
percentage of American travelers taking road trips has 
increased by 64 percent, and more than two-thirds plan to do 
one in the next year.
    Close to home, on the other hand, we see one of the most 
interesting trends in our data is that people are camping 
closer and closer to home. Seventy percent of campers camp 
within 150 miles of home, and that has increased 15 points in 
five years. Our take on this is that people are increasingly 
busy in time, and while we do market our national destinations 
such as the national parks, it is very important to reach out 
to your local area and let people know what they can go 
explore. We at KOA have a shared interest with you in 
increasing visitation to all of the national parks, monuments 
and historical sites in the system. Not only are we passionate 
about the benefits of the outdoor experience that are found at 
these locations, but the livelihood of our small business and 
entrepreneurs that surround these points of interest depend on 
it.
    I believe camping households are a prime target for the 
park system, and we look forward to doing our part to help 
increase the collective awareness of our national wonders.
    Thank you.
    [The prepared statement of Ms. O'Rourke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Daines. Well, that was impressive. You all stayed 
right within the time limits too. That is great.
    Let's start with Mr. Jenkins. As you are aware, the 
Centennial set records, you mentioned that in your testimony, 
in terms of visitation at a number of parks across the country, 
including places in Montana like Yellowstone and Glacier. I 
know you track those numbers. As we seek to increase visitation 
of parks that are currently less well-known, like Grant-Kohrs 
or Little Bighorn Battlefield, we need to ensure these sites 
have the capacity to meet the needs of increased visitation.
    We talked a little bit about that in your testimony, 
reflected across the witnesses here, about the Every Kid 
Outdoors and the Find Your Park initiative, which are 
wonderful. What we need to do here is get more young people 
outside. Could you explain how the Park Service forecasts 
visitation in individual park units? How do you prioritize 
staffing decisions, especially when you have the seasonality 
challenges with staffing units, while at the same time dealing 
with increasing visitation?
    Mr. Jenkins. Thank you, Mr. Chairman. I am not aware that 
we actually, across the country, forecast increases in 
visitation. Rather, what we do is we rely upon the 
superintendents of the staff in their parks, given their local 
knowledge and the work that they do with their partners, to be 
paying attention to the trends and looking into the future in 
terms of what might be coming our way. Are there special events 
coming? Commemorations, anniversaries, as well as also larger 
trends. You are correct in terms of staffing is a really 
interesting calculus for superintendents and their leadership 
teams as they are trying to figure out how to manage within 
fixed budgets and optimize when they need to have staff on in 
order to be able to meet the visitation curve, if you will.
    And increasingly what we are seeing is that those 
visitation curves are both higher and pushing at--so earlier 
into the spring and later into the fall in terms of parks 
wanting to have programs to be able to support people coming. 
And then also, many superintendent parks are working closely 
with local communities, with school districts and educators, to 
run programs that are counter seasonal. So when the school year 
is going on, to be able to host kids like they do here at 
Grant-Kohrs, to be able to come and be able to learn about the 
park.
    Senator Daines. What about some of these larger bus tours 
that we will see? We see those more typically in some of the 
larger national parks. How would the National Park Service 
coordinate with these tour groups? Think about their 
itineraries. I mean this is a hidden gem here. And I think 
about how increasingly there is a desire for the genuineness of 
a travel experience. You know, to be off the beaten path and 
social media can drive some of that as well.
    We were chatting a little bit at the Big Bend National Park 
where the Find Your Park hashtag just drove tremendous traffic 
to a place you have to hike miles to even get to the park. How 
does the National Park Service work on these itineraries with 
some of these larger tour groups, and how might you highlight a 
place like Grant-Kohrs?
    Mr. Jenkins. Sir, with your permission, let me give part of 
the answer, and then I will turn it over to Jacque to let her 
talk about some of the things that we are doing here. So at a 
national level, we have a tourism office that works with the 
tourism industry and that participates in things like the 
international powwow and other trade shows where they get 
together with the trade industry too. And a specific thing that 
they do with that time is to try to highlight opportunities in 
terms of lesser-known parks.
    I think also what we realize is that when people are on bus 
tours and they are visiting Yellowstone, or Glacier, or Rocky 
Mountain, they are usually coming from large metropolitan areas 
and going by places. And so it is, if you will, filling in the 
hole, filling in the places on the on the journey. I like your 
recognition of people who are looking for authenticity and 
being able to go and visit those. And then, again, we rely on 
local knowledge and local partnerships. By way of example, when 
I worked at Lewis and Clark National Park in Astoria, Oregon, 
we would coordinate with the commercial tour industry, where we 
would meet with them early in the season and we would provide 
training for their onboard guides. And then we would work with 
them to try to make sure that the tour buses all did not show 
up at 11 o'clock. And where we would have, you know, long lines 
for the bathroom or trying to see, you know, rather we would 
work with them to try to set up a schedule so that the buses 
would arrive at intervals so that both we could handle them 
within our capacity but they were also ensuring the quality 
experience. Let's hear from Jacque.
    Ms. Lavelle. Several years ago, we had a success story, 
which fits right into your question Senator. A tour bus 
operator who brings tourists from Australia and they do an 
extended tour through Glacier National Park, visiting Montana, 
and going down to Yellowstone, stopped by to visit, just to see 
Grant-Kohrs Ranch. And after finding what a gem this was, they 
now regularly schedule their tour bus routes coming through 
here. They contact us before their buses come through. They 
stop in Deer Lodge, and this is basically the restroom stop. 
They let the buses, sometimes two, three buses at a time, 
unload here in Deer Lodge.
    And not only do they visit Grant-Kohrs Ranch, they go down 
Main Street, they go to the Brew Pub, they have pizza at the 
pizza place, and it actually is a wonderful opportunity and we 
find that the other Australian tourists love American ranching 
history. So it's a perfect marriage just by having that one 
visit of the tour bus company recognizing, oh, there's a brown 
sign, it's a national park, and I'm getting the same experience 
here that I would get at Yellowstone or Glacier.
    Senator Daines. Of course those Aussies, that is the land 
of Man from Snowy River, right?
    [Laughter.]
    But I think about some of our visitors that are coming from 
overseas, perhaps a little North of Australia, and how that 
Montana cowboy mystique that everybody knows about seems like 
would just be a tremendous attraction for here, an experience I 
believe goes so well with our heritage here in Montana.
    I wanted to go over here to Commissioner Crachy. Thanks for 
your testimony, again, and kind of letting out the perspective 
here on the economics and as a Commissioner, the challenges you 
face of making everything balanced and providing services for 
the County Government.
    According to Park Service, visitors to the parks in the 
State of Montana spent $633 million in our local gateway 
communities last year, and Grant-Kohrs identified about $1.6 
million for this park. Could you elaborate on the importance of 
that number to Powell County and what it might mean if we were 
to continue growing that number year over year?
    Mr. Crachy. Thank you, Senator. All the tourists that come 
in, if they stop, you know, like Jacque mentioned, with the 
buses coming in and going down Main Street, and any of the 
tourists that visit or spend any money at any of the local 
businesses, obviously wind up helping both the city and the 
county by creating jobs, by employment, and you can see that by 
looking at the town. We have a brewery that has opened in just 
the last couple of years, you know, they seem to be doing well.
    If you look out by the interstate where we have a 
McDonald's, the new hospital, you know, the I-90 convenience 
store, the one across the street, there is an Indian Creek 
Campground right there. You know, there has been some expansion 
going on in that area. And not that this is all related to 
tourism, but tourism does have a major impact on the city and 
the county. And the more tourists we can get in, or even people 
just to come off the interstate and fill up a car with gas and 
spend money is going to help the overall general economy.
    Senator Daines. I am going to go over to, again, a question 
for Mr. Jenkins. I mentioned earlier in my opening remarks 
about the deferred maintenance challenge we face across our 
national parks. We have got the spreadsheet for it here at 
Grant-Kohrs. That number is about $5.4 million, and I think for 
the sake of those who may not be in the weeds of what we look 
at on deferred maintenance, this can be not just the things you 
see on the storefront when you walk around, how beautiful it 
is, but sometimes it is the lesser-known parts, employee 
housing, water and sewer systems that are absolutely essential 
to allow these parks to continue. So it is about $5.4 million 
here in deferred maintenance. That is not as large as some of 
the parks in Montana. I am working with Cam Sholly and Jeff 
Mow, and Jacque you are now my next best friend. 
Superintendents here at parks love you. This is great. It is 
still a significant number, $5.4 million a year. How does that 
total impact the visitors' experience here of the site by you 
not addressing the issue of deferred maintenance?
    Mr. Jenkins. Again, let me answer part of this question and 
have Jacque speak specifically. So exactly as you mentioned, it 
is a little over $5 million here in deferred maintenance for 
Grant-Kohrs, $586 million for Yellowstone, that Cam is dealing 
with there. In between, for Glacier it is $325 million, I 
believe is the total across the State, or Yellowstone was kind 
of counting a large part of Wyoming. And that maintenance 
backlog is critical because, as you said, it is everything from 
the things that you don't see, water and wastewater, and 
electrical systems. So relating it to your home, it would be 
like your septic system, or connection to the sewer, or your 
well, to the employee housing and the roads to trails.
    About half of all the deferred maintenance is in roads, the 
way that people want to be able to access the park, whether 
that is Yellowstone or Grant-Kohrs. And so making progress on 
addressing the deferred maintenance is fundamental to meeting 
our mission for providing a high-quality visitor experience, 
everything, you know, being able to drive, hike, get 
information to the visitor center, spend the night in a 
campground or a lodge, and all of the other support structures. 
But let's learn a little bit about what the story is here.
    Ms. Lavelle. So the deferred maintenance story here, as 
Chip mentioned, about half of it is roads, which for us means 
the access that we use to get to our cultural landscape and our 
fields, taking care of our fields, which actually double as 
hiking trails, hiking trails that tie into the County's hiking 
trail. So being able to maintain those and keep those in good 
condition is of paramount importance.
    The other aspect of the deferred maintenance is the fact 
that this is a historic site so every time you do maintenance 
on a historic structure, you have to follow the Secretary of 
the Interior's standards. It is not as inexpensive as it would 
be if it was modern buildings. We have to use historic 
techniques, so it is always more expensive. So whenever you are 
thinking about maintenance for a building like this, you are 
thinking about using the traditional methods, you are thinking 
about using whitewash in the traditional recipes. So it is more 
expensive, and it actually makes the visitor experience more 
realistic and more authentic.
    Senator Daines. Great. Thank you, and I could not agree 
more. You know, part of the good news that you hear a lot about 
the polarization divides in Washington, DC, and I think if more 
Americans saw some of the good work going on between Democrats 
and Republicans working together here on the deferred 
maintenance so they can move everybody's hearts like we need to 
produce an outcome here. But there is a lot of the genuine 
bipartisan support to address this very important issue. So 
before we can stay in Grant-Kohrs with you, Superintendent, I 
hope that we will see a bill moving through here pretty soon, 
so keep pushing on it.
    Ms. Bannon, thank you for being here as well today. You 
know as well as anyone that tourism is a pillar of our economy 
here in Montana. Outdoor recreation, by some estimates, suggest 
it is a $7 billion economic driver here in Montana. One of our 
biggest draws, of course, is our unmatched scenery, and it was 
earlier here today when Michelle and I were doing our brief 
before the hearing, we were out there outside the barn where 
the draft horses are--what a change of scenery from the swamp 
back in DC.
    [Laughter.]
    Just a beautiful landscape there. What is often left out of 
this story though is that the smaller and the lesser-known 
parks, the small businesses, the rich history, draws visitors 
from all around the world as well. I think about our parks in 
our country as being kind of the ``Department of First 
Impressions'' oftentimes for international visitors who come to 
the United States, and their first experience will be in one of 
our parks.
    This gets back into the importance of the deferred 
maintenance to make sure everybody's experience here, that 
first impression, is a positive one. Your expertise is in the 
Southwest region here. Could you give me an idea of how the 
sites like Grant-Kohrs, how they draw visitors into towns like 
Deer Lodge, and what importance does that play in the larger 
Montana tourism economy?
    Ms. Bannon. Well Grant-Kohrs offers a culture that you 
cannot find in most national parks at all, and it is a way of 
life that most people are not exposed to. So that in itself is 
a draw. And then when we have international people coming, they 
find that authentic heritage is a big draw. And so all of this 
brings in people from not only all over the states but 
international tourists, and they are experiences that use their 
money as they pass through, as you heard, in the restaurants, 
and in our other attractions.
    They also go back with word of mouth. That is really huge 
for bringing more people in and quite often they will say, we 
found this little gem hidden in the corner of Montana. So we 
find that word of mouth is huge in spreading the word and 
consequently bringing in more economic development here.
    Senator Daines. In today's society with these [holds up 
smartphone], word of mouth oftentimes I think is social media, 
and I think we have seen examples with the Find Your Park 
initiative, the #everykidoutdoors. I would like to just maybe 
open this up to any of the witnesses here, Ms. Bannon, thinking 
about how might we use social media to promote a site like 
Grant-Kohrs?
    Ms. Bannon. On our social media, they have events that 
people are excited about. They like to post their pictures. 
Pumpkin Sunday, they want to post pictures of all the fun 
they're having here. Roping, the little wooden cow over there. 
So right away people are already excited and want to post on 
that. We have things going up on YouTube that will capture some 
of this. We have the branding that is exciting--some of us have 
a hard time with it; we know it's part of culture.
    [Laughter.]
    But all of that is so educational and so mind-boggling to 
some people that go get a hamburger at McDonalds. They don't 
see the back side of things. So all of that with social media 
will help, and along with Facebook and Twitter, Instagram, the 
photos going up on Snapchat. So it's out there, and we just 
need to keep that on the forefront, I think.
    Senator Daines. Ms. O'Rourke? You probably have a thought 
on that, I am guessing.
    Ms. O'Rourke. I do. Social media and digital marketing are 
very foundational to have a market at KOA. A couple suggestions 
I would have, one plays into influencers strategy. So it is one 
thing to have a Facebook presence or Instagram, you know blast 
out yourself, but it is more impactful to engage people on 
these national parks, invite these people that have audiences 
of their own.
    So if you just hope for it to organically happen, there is 
some of that and there are some success stories, but we are 
very thoughtful about our engagement with specific influencers, 
whether that be someone that is starting a family, you know, a 
mom in our blogger target, or something to do with diversity 
stays, for example, that we get them onto our campgrounds to 
experience that and they are sharing it to a much wider 
audience.
    The other thing I would add with social media is that 
Facebook, Instagram in particular, are so sophisticated in the 
way you can target, so we can get our message, we can be very 
specific about which zip codes we want to hit, which interests 
these people have based on what they post on, other pages that 
they like, and so you can have a very sophisticated strategy of 
advertising within social media. It is not just about posting, 
it is about your digital marketing strategy to get, you know, 
they look like organic posts, but they are essentially ads, in 
front of people. So you could be targeting the region, you 
could be targeting certain areas of the country, about specific 
locations to attract that awareness.
    Senator Daines. Go ahead and keep the microphone. I will 
try to project, you can keep the mic. So these influencers you 
are talking about, are for the benefit of those who may not be 
in that world watching that, where you have Instagram sites 
that are primarily having a travel experience. That is all they 
do. They travel and they post their experiences, people follow 
that, and they want to mimic that experience they have. It is 
particularly targeted to millennials, which is a big part of 
demographics as we are thinking about where we could target. 
Could you talk a little more about who might--specifically talk 
about this park, what influencers do you look at? Are there 
some particular influencers you might think about--you don't 
have to give me specifics--you probably have some ideas in 
mind. What partnerships--thinking about with Southwest Montana, 
with development, with our commissioners, with the park here? 
We might want to bring them here to post on Instagram, 
Facebook, and that has ignited some significant shift in park 
visitation in other places around this country. I mean, 
remarkable results. Just think more about how we might do that 
because it is a fairly cost-effective way to market.
    Ms. O'Rourke. Yes, it is very cost-effective. So there was 
a lot of talk earlier about word-of-mouth marketing?
    Senator Daines. Yes.
    Ms. O'Rourke. Really, it is about word of ``mouse'' 
marketing in today's world----
    [Laughter.]
    And so people, and there are a lot of stats around it, how 
they are influenced to travel is based on what they see friends 
and family posting. They have been more so influenced by people 
they trust online. So that you know, retail companies use this 
all the time, they send their clothes to fashion bloggers that 
post images of them in these outfits, they cultivate these 
communities of people that follow and trust their advice, and 
then they order that product.
    So it is similar in travel. It is a really big deal, and I 
think we can take more advantage of that within the park 
system. So a place like this, you know, if you were asking for 
my suggestions, top of mind, I would definitely play into the 
family target. And I talked about I think the millennial family 
is very important. Millennial parents are very interested in 
educating their children. They want to provide them unique 
experiences. They want to get them outdoors.
    And so if you can create environments where you are 
bringing some of the social media influencers that have 
audiences of families, you know, mothers that are watching them 
of young children and you are bringing them here with their 
children, they are getting that educational experience. They 
are seeing all of the unique things that Grant-Kohrs has to 
offer. They are going to write stories about that on their 
blogs. They are going to post pictures of that on Instagram.
    And these people have hundreds of thousands of followers, 
and then they bookmark that, and that becomes one of their 
bucket lists. And we do this every day, and I think it is how 
you can get very targeted for very, very little money and 
investment.
    Senator Daines. Right. So you have a facility here you 
mentioned, right?
    Ms. O'Rourke. We do.
    Senator Daines. As you think about, if you were going to 
market for the Grant-Kohrs KOA Campground here, are there some 
influencers that come to mind as you think about that, both 
domestic and perhaps even internationally? And then how we 
might, in building strategy here, make that stop, Yellowstone 
and Glacier would be anchor locations, we could use that to our 
advantage, figure out ways of making that trek?
    We want to make sure they spend not just a bathroom break 
here, but I would get them here, into town, and have an 
experience here where this becomes a high-priority part of the 
travel experience and not just a place to take a stretch point?
    Ms. O'Rourke. Right. And the other, you know, trend is 
FOMO, the fear of missing out. So if they feel like something 
is happening here, that they came all this way to Montana and 
Wyoming, and then they drove right by it and they are missing 
out, and your messaging can be structured around that. And this 
could be very targeted in advertising through geo-targeting so 
you can hit somebody when they are in view, and they are 
seeing--you know, everyone is on their phone. I just got off a 
road trip with my family, and I sat on my phone half the time 
while my husband was driving and I was getting ads for things 
happening in Colorado as we were driving through Colorado.
    You make people think with those ads that they are missing 
out on real, true, authentic Western experience, you know, just 
a stop down the road. So if I'm marketing, to your question, 
the KOA here, I am promoting--I am drawing that camper base 
here because there are all these things to do in the area. So 
we find people choose campground locations based on location. 
So you have to sell them what there is to do here, and a lot of 
ways to do that is not just show it but to really show it 
authentically.
    And people, you know, not just a billboard, and billboards 
are very important, but really show what is happening behind 
that whether you are doing it online, on the billboard, or in a 
magazine ad, that feeling that they are missing out on 
something and they have to stop.
    Senator Daines. Okay. Are there comments, thoughts? Jacque, 
you want to follow up on that too? Sure.
    Ms. Lavelle. Yes, I would agree. And I love the FOMO. I 
think that is absolutely accurate. The other thing which 
happens a lot at Deer Lodge, Facebook is definitely a media 
that is heavily used for people to communicate about events, 
and I noticed we will post something on our Facebook page and 
then the Deer Lodge classifieds will post it on their page, and 
then the Chamber of Commerce will post it on their page. So 
sometimes that reposting actually builds that FOMO excitement 
of, why are all these people talking about this event? I did 
see the announcement for this hearing posted several times 
yesterday on our Facebook page and Facebook for Deer Lodge 
classifieds.
    Mr. Jenkins. The National Park Service has social media 
accounts that are both handling nationally as well as also 
locally. And nationally, our DC office works to highlight 
lesser-visited parks, but perhaps more directly to your 
question is what we also have is some of the larger parks are 
actually stepping up to market the less-visited parks. Grand 
Teton actually has Wyoming Wednesday, where every Wednesday 
they use their social media to be able to highlight places 
around the State of Wyoming to inform people.
    So I think it is--we also have many parks, just as Jacque 
was saying, working to get expertise such as what Toby, you 
know, talks about to be able to try to develop a social media 
marketing plan and be able to identify what is appropriate for 
the National Park Service to do, what is appropriate for 
private businesses to do, but how you can go about coordinating 
your social media activities so that you are amplifying it in a 
strategic way.
    Senator Daines. So Jacque, you need to go talk to Jeff Mow 
and have Montana Monday, how is that?
    [Laughter.]
    Ms. Lavelle. Great idea.
    Senator Daines. So Cam Sholly is the Superintendent of 
Yellowstone National Park and Jeff Mow of Glacier National 
Park, for those who may not know those names.
    A question about cost and return on investment. As some of 
you know, I spent most of my career in the private sector, so 
politics is still a new thing for me, and marketing was always 
such an important part of any business. If you are not selling, 
you are not moving your business forward and keeping the lights 
on. Think about the relative costs whereas you think about 
marketing budgets, it is always tight budgets, there is never a 
lot of excess dollars floating around in this world. What do 
you think would be the most effective use of marketing, and 
that may mean to back up a social media site, in terms of the 
greater return on investment for marketing spent?
    Ms. O'Rourke. We are very data-driven in my business, so we 
track everything. We transitioned most of our money out of TV 
into digital. We can return $22 per dollar spent on a digital 
ad and that is not necessarily, that can exist within social 
media, but that could be, you know, standard billboard ads that 
you may see while you are navigating the site, or search 
advertising is probably the most efficient and effective way we 
can market our business and you have to be top of the pole, you 
have to be the first one or two. And sometimes we see upwards 
of $27 of return based on an investment in that area----
    Senator Daines. For a dollar?
    Ms. O'Rourke. For a dollar. And so as you are--it is very, 
you know, based on keywords. You have to be in front of what 
you think people are searching, and I think there is a big 
opportunity to market places like this and others across the 
country if you are focused on road trips, and you know people 
are looking at Yellowstone, so you buy Yellowstone keywords to 
promote Grant-Kohrs. They are already going to Yellowstone, so 
they are searching all these things to do in Yellowstone, but 
you are serving them ads and they are like, oh, yeah, we are 
going to drive right by there. And that, we find, our most 
return comes from digital ads.
    Ms. Bannon. I find that it is really hard to measure the 
other side of advertising. Digital is cost-effective, but you 
also find that you have a lot of people that like to read while 
they are in the car. So I find it is nice to have both the 
digital and brochures saying come in to Grant-Kohrs because it 
is not necessarily on their radar. If they are going through 
say Yellowstone, but they see the brochure, they say, oh, yes, 
let's keep this on our radar and that is passed through on 
that. So I think you need a variety of ways of marketing your 
attractions.
    Mr. Jenkins. And just to build on how to give credit to 
Jeff up in Glacier is that, you know, many national parks have 
a park newspaper. Well Glacier dedicates a page in their park 
newspaper to Grant-Kohrs, so people visiting there, when they 
come through the entrance gate, they get something they can 
read in the car about Grant-Kohrs.
    Senator Daines. That is great. How about Cam?
    Mr. Jenkins. Well, we will have a conversation.
    [Laughter.]
    Senator Daines. Cam is a dear friend. I was going to try to 
get a few days out there to spend some time together off the 
beaten path in Yellowstone this summer, but it is not working 
out that much, maybe next year. Thank you for that discussion 
and that thought. Spending time here, and you think about the 
off-the-beaten-path, and again that word authentic was used, 
the genuineness of this experience and the lack of crowds and 
so forth, and so many things people are yearning for. They come 
to Montana to get away from the traffic, away from the urban 
kind of environment, and I think you have got something very, 
very special here.
    I have a question back for Ms. O'Rourke. KOA, like the 
National Park Service, manages a lot of individual units across 
the U.S. You are in Alaska, Maine, as well as in Canada and, of 
course, your campground here in Deer Lodge. Just like the Park 
Service, or really any business with a retail presence, some 
sites are just getting more popular than others. What does KOA, 
or if you are able to share, how do you identify new sites for 
your portfolio as you look at a potential visitation stream? 
Approximate national park unit is something you might look at 
as you think about expansion.
    Ms. O'Rourke. Thank you. Yes, as I said, we have 520 
locations across the country. Each of our franchised 
properties, which is the majority of that, is guaranteed of 
territory. So in some ways that can restrict our ability to 
oversaturate one particular area. For example, the Yellowstone 
parks we were talking about earlier and Glacier or any national 
park campgrounds are very, very busy and popular because there 
are people traveling to those parks so naturally they are 
camping outside the parks. Our strategy is to put as many KOAs 
around those parks as possible, and a lot of our owners are 
adding additional locations because it is within their 
territory. We cannot just add another one. They are guaranteed 
a certain territory.
    But other ways we look to expand, you know, our business 
grew up on highways and byways, the interstate system. We 
actually have three types of campgrounds that were segmented: 
the resort destinations; holiday locations, which are base 
camps to explore; and journey parks, and journey parks are all 
about convenience for that traveler. So we do have some 
campgrounds that are more popular based on their location, but 
each of our campgrounds serve some sort of purpose. It could be 
aiding that traveler. And so if I'm equating that to the park 
system, every park has, you know, there are certain crown 
jewels and there is another part that maybe serves a different 
purpose. They are all meeting that need of someone exploring 
our heritage and they can be promoted, just like that road 
trip, again going back to that.
    So just as a journey campground serving someone traveling, 
so could this campground be a great step for an afternoon while 
they are going to make it to their ultimate destination in 
Glacier and make their stay in the campgrounds there. So I 
don't know if that answers your question, but absolutely it is 
driven by tourism markets, it is driven by national parks, 
urban centers. We have campgrounds outside of major cities as 
there's people looking to get outside the city, and that is our 
expansion strategy.
    Senator Daines. Mr. Jenkins, you are the Director of the 
entire Intermountain Region. You serve under the National Park 
Service. Thank you for your service. Could you share some of 
the success stories that might come to mind where you have seen 
maybe smaller parks where they have been able to drive some 
increase in visitation, increase in visibility, and perhaps 
there are parks within your territory, or stories you have 
heard about other parks around the country that once were kind 
of off-the-beaten-path and now are increasing their numbers?
    Mr. Jenkins. Sure. First, what I would say is, kind of, 
every place where there is an example of successfully marketing 
the opportunity with a lesser-known park pretty much is 
universally as a result of a partnership or partnerships, work 
collaboration with local communities, collaboration with local 
businesses, collaboration with state organizations. It is not 
something that we can do alone, and part of it is, is 
leveraging resources to be able to do that.
    I think a nice example that is going on is actually the Big 
Hole National Battlefield where the park is continuing to grow 
the relationship with the Nez Perce tribe. Many, many people 
both from the United States and from around the world are 
fascinated about tribal history and culture, and the working 
relationship of Big Hole and also the other Nez Perce sites 
where the tribe is willing to come in and do cultural 
demonstrations, where they are able to do drumming and singing, 
language programs. Again, it goes to that authenticity. It is 
the real thing and it is done by the people who, you know, it 
is their heritage, telling their story. I think that that is 
part of what is attractive here at Grant-Kohrs. It is the real 
heritage.
    In addition, we are also working with local businesses 
about how they can play a role with commercial tours and tying 
in with other local businesses in terms of being able to have 
crafts that are also being sold. So that is one example. I 
think a different place, and a little bit of a different angle, 
is a Little Bighorn, where we are seeing a change in 
visitation. We are seeing people showing up with larger 
vehicles, particularly trailers, and within the existing 
footprint that we have, you know, just being able to be a 
welcoming place as part of our deferred maintenance, we need to 
modernize the parking lot so that we can reconfigure within the 
existing footprint, so that we can accommodate people being 
able to come with the projected way that they are going to be 
visiting there. And so working with funding that comes from 
Congress in order to be able to make the infrastructure changes 
that we are making at those parks.
    Senator Daines. Yes. When you think about it, our history 
in this country is still relatively new compared to a lot of 
the world. You used that Nez Perce example, or the cowboy 
experience here, it is not that far removed. In fact, I had 
dinner with an 83-year-old rancher in Carbon County early this 
week, and he was talking about his grandfather and it was just 
direct memories of when he came to Montana pre-statehood. And 
you think about, that was his grandpa and he still has 
firsthand memories of that. And we have a chance to preserve 
that, right, and to share that.
    I wanted to talk too about the veteran population, one of 
targeted groups we can have in terms of driving tourism. Last 
year there was a bill that I sponsored called the Every Kid 
Outdoors Act, talking about the importance there in the 
demographic of millennials and so forth, getting kids out of 
the house into our national parks. I should say the students 
not kids. I am a father--having a slip there. I was happy to 
see that that was signed into law by the President as part of 
this Lands package we passed earlier this year. A historic 
Lands package.
    This year, we are working on increasing veterans' access to 
our parks. It is a bill and it is called Accelerating Veterans 
Recovery Outdoors Act, and here in Montana we have a lot of 
Wounded Warrior programs bringing veterans here who have 
suffered injuries in the battlefield and come out here, we take 
them fly fishing, we take them hunting. There are a lot of 
great stories of where they have experienced the Montana way of 
life. This bill will not only help get veterans into our parks, 
but also help, again, with their recovery and treatment from 
some of their injuries.
    Mr. Jenkins, could you talk a bit about the parks that give 
passes to veterans and students to expand visitation? You 
shared a little bit earlier about Every Kid Outdoors, and 
particularly how it applies to our less-visited parks?
    Mr. Jenkins. Sure. First of all, thank you for the support 
of the Every Kid Outdoors Act. I mean that has been--in the 
Every Kid in a Park program, in the first four years of 
existence, there were over 600,000 fourth graders that 
participated in that program. That is a remarkable success, and 
the fact that that program was authorized to continue into the 
future gives us and the BLM, the Fish and Wildlife Service, and 
the Forest Service, a very powerful tool to work with our 
partners for that. Programs like that are important both for 
the passes and also incentivizing nonprofit organizations, like 
the National Park Foundation and others, to provide grants to 
work with educators and schools so that we bring fourth graders 
to parks. And then as a part of their school visit, they get an 
Every Kid Outdoors pass.
    So we are leveraging a lot of different resources in order 
to be able to do that. Hopefully, the kid, the student, goes 
back from there, from their fourth grade class trip, takes 
their pass home, and that incentivizes the whole family then to 
be able to come and visit the park or multiple parks. In terms 
of working with our military, both active and veterans, it is--
one of the angles, as Toby pointed out, you know, part of it is 
working in the diversity space and one of the most diverse 
organizations in this country is the military.
    And so there, actually the Park Service has been viewing 
that as kind of double duty, both honoring the service of 
working with those who are active duty and veterans, but it is 
also an enormous opportunity for us to be able to connect with 
diverse audiences and diverse organizations. And we work with a 
variety of different partner organizations to host veterans to 
be able to come in a variety of different ways, and we are 
experimenting and piloting different programs, particularly 
around helping veterans heal and move to post-military service 
careers.
    For example, I would use my day job. I am Superintendent at 
Mount Rainier National Park. We work with an organization 
called Mission Continues, where for the last several years the 
Mission Continues leadership comes to Mount Rainier and they 
spend four or five days doing a combination of service projects 
where they are working together and doing team building, and 
then around the campfire and over evenings, they are doing 
strategic planning for the organization about how they can 
bring other vets to be able to be engaged.
    Senator Daines. Well, thanks. I think we cannot 
underestimate the power of that experience. We had a young 
Green Beret from Montana that was nearly killed in action in 
March in Afghanistan. I visited him in Walter Reed. He is from 
Northwest Montana and I will keep it anonymous here because he 
is in Special Ops, but then he could not walk again. He got out 
of Walter Reed, and as they were pushing the wheelchair around 
the Capitol Hill earlier this year, so you can see it, then 
fast-forward to Fort Carson a couple weeks ago shooting on 
their long-range thousand meter targets. Guess who showed up to 
shoot with me? This young Green Beret from Montana. And as part 
of the healing process, we said we would elk hunt here this 
fall, and he was so excited. And the day when we lost one of 
our key Green Berets on July 13th, a 40-year-old gentleman with 
three children tragically killed who was a mentor to all these 
Green Berets, and on that really dark day, that text I sent 
him, would you like to go elk hunting in Montana? And now they 
are going to come, and of course we will work on the project. 
Anyway, it is a little of that important part, I guess. Just 
one more story to add.
    Well, we are going to move toward our conclusion here. 
Before we close, I would like to ask one more question to each 
of you, and we have discussed a lot of different thoughts, 
thrown some ideas out there about ways to perhaps cost-
effectively improve traffic and visibility here to a place like 
Grant-Kohrs. Here is the question. If you were to leave one 
suggestion for Congress, for the Administration--I am sorry, it 
can only be one----
    [Laughter.]
    We are just interested in Montana in general, what would 
you want to see done that might help improve visitation at a 
site like Grant-Kohrs, and anything you would like to see done 
specifically? And we are going to open up to whoever wants to 
go first, and Jacque you get to have a word on this as well, 
okay, as the honorary fifth member of the panel. So if anybody 
wants to start that out, let me know.
    Ms. Bannon. Well, I like the idea that we will continue our 
marketing and really focusing on this national historic site. I 
would like to find a way to get more, and this goes against the 
new way, but the traditional, I would like to have some 
brochures. We have brochure exchanges. We have our Glacier Park 
National Park. I feel if we can get Grant-Kohrs Ranch in there, 
this is right in-between, it is right on the trail. It is in 
their hands. I think if we can get more brochures, we will get 
them out to all our area and our neighboring areas. So I would 
like to be able to do that.
    Mr. Crachy. Thank you, and I would like to kind of play on 
that too. I am old-fashioned, you might say. I don't have a 
cellphone--I don't have a smartphone.
    [Laughter.]
    I don't have cell service at my house, so I don't have a 
smartphone. I do have a flip phone. Brochures are great. I 
learned a lot about what social media has to do. I am not on 
Facebook and all that, but I did learn a lot from Ms. O'Rourke 
about how good of an advertising factor that is. I want to make 
sure that we, as a county, we are in cooperation with the city 
and the Chamber of Commerce. We do have an individual that is 
hired jointly that we all have that is just for that purpose of 
trying to bring anything of importance, or bring tourism in or 
anything, into the county in general, and also with the city 
and the Chamber.
    But we are not only looking at Deer Lodge, we are also 
looking at our little rural communities like Vandal, Helmville, 
smaller ones. If they have anything that they are doing, trying 
to get it out and advertise through this individual. I know she 
uses social media. Thank you very much for having me.
    Senator Daines. Thanks, Commissioner. Ms. O'Rourke.
    Ms. O'Rourke. Thank you. So the first one is that I would 
offer brand partnerships representing private industry here. We 
get, you know, discussions a lot with the Interior Department 
about private investment in parks or centers, but let's extend 
that discussion to something Chip talked about, maybe think 
about ways that we could better partner together for purposes 
of marketing because that drives my business and drives 
visitations to each of these individual locations.
    And before the hearing he had shared that the park system 
can't actually buy ads. So the discussion we had, I did not 
know, and I do know now that you can't actually invest money 
into those digital ads, but I can, and I can do that to the 
benefit of both of us. So I think that there is something to be 
explored there. But the thing I wanted to talk about again, we 
talked about children and we talked about veterans and I 
touched briefly in my statement about minorities. I think that 
that is a huge area of opportunity nationally for targeting and 
be more inclusive and focusing on bringing minority 
demographics to the outdoors, into our national parks, whether 
it is the large parks or the small parks.
    And there is a lot of work to do and with my own business 
we are tackling this as well. We are having an inclusion in 
camping summit at the Presidio, another national park, in 
September where we are bringing together leaders in our 
campground organizations to have discussions specifically about 
inclusion because we are learning, while the numbers are 
showing their steady progress, there is so much work to do. 
There were studies done several years ago out of Wyoming that 
showed that, for example, the study was an African-American 
demographic that said they did not feel welcomed in the 
national parks. Other things coming out of that research was 
showing that among Hispanic or African-American, they did not 
even know about the national parks. And so that is something we 
work on in our business and I think that can be elevated. That 
plays into the being inclusive in your marketing, that plays 
into working specific outreach programs with these influencers.
    That is how we are starting right now that I talked about 
earlier. There are a lot of activists groups that have been 
formed across the board. It is not just people of color 
communities. It is also LGBTQ and handicap and women as well. 
So I think there is a lot of work that can be done there and it 
is not just marketing to market, it is true, authentic 
engagement. And that is where we are shifting as a brand and I 
think the Park Service could do that as well because then it 
seems more welcoming and more real.
    And then the third part to that is also representation in 
park rangers and in staff. So on my side, I want to look at how 
I can increase numbers of franchisees from people of color 
communities and other underrepresented groups, and I think some 
national parks have made efforts and inroads to increase 
diversity, not just among color but also with women and I think 
that that is important to continue, because when that is played 
back to the visitor, they feel welcomed there and that helps 
increase visitation.
    So I think that is a huge initiative that the outdoors 
needs to embrace across the board, and it is private industry 
as well as public.
    Mr. Jenkins. You can have the last word. Senator, thank you 
for your work on focusing on the different maintenance backlog 
and that is what I would say is that it is continuing the 
effort. Making progress on deferred maintenance is fundamental 
to world-class visitor experience, and we want people to have a 
world-class experience from Glacier to Grant-Kohrs. And 
Congress' continued focus on helping us to address the 
maintenance backlog will get us there.
    Ms. Lavelle. Thank you for the last word. Senator, the one 
thing I would say that would make a difference is just what you 
are doing here today. You have made a conscious decision to 
come to a lesser-known park and have a public event. And I 
would say, in my tenure of six years here, this is the first 
elected representative that has ever visited Grant-Kohrs Ranch. 
So I applaud you, and I invite you to share that with your 
colleagues.
    Lesser-known parks are in every state in the country, and 
it is common and very easy to think, I am going to go to 
Yellowstone, I am going to Yosemite as my backdrop for my 
event, or for a citizenship ceremony, or for hosting some 
activity, or even going to an event. It is not common that 
lesser-known parks are thought of, and I appreciate the fact 
that you are willing to do that because we are absolutely 
willing to host events like this.
    Senator Daines. Well, thank you. Ms. O'Rourke, in your 
opening testimony you talked about a 150-mile kind of a radius 
where folks are going. I think of my own hometown in Bozeman, 
which is the fastest-growing micropolitan in America now, which 
is defined as 50,000 people or less. There are nearly 50,000 
people in Bozeman. All the folks move in there and you are 
exactly right on that radius, two hours, for that family that 
is looking for something to do on a weekend to kind of get off 
the beaten path.
    And so there are probably some opportunities right here in 
our backyard that we have around us, some of which I jotted 
down as well. You could--you drive another 500 people, you 
know, if that makes a dent, or 1,000, a couple thousand--
126,000 visitors a year here.
    Well, thank you. I really appreciate the witnesses for your 
testimony and your thoughts. Jacque, thank you for all you did 
here to make this happen today. Thanks to our audience as well 
that is here to see what it is like sitting here. It is a 
little more relaxed here than in Washington. In some ways, this 
is the way Government works and it should work that way. I find 
we can bring DC out here to Montana. We have a discussion here 
that we got a number of to-dos that hopefully will drive the 
endgame here, which is increasing visitors coming to Grant-
Kohrs, helping out Powell County and these communities around 
here.
    I want to thank the witnesses for your time and your 
testimony today. The hearing record will be open for two weeks.
    This hearing is now adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              


</pre></body></html>
